<html>
<title> - HEARING ON THE ADMINISTRATION AND MANAGEMENT OF THE UNITED STATES CAPITOL POLICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   HEARING ON THE ADMINISTRATION AND MANAGEMENT OF THE UNITED STATES 
                             CAPITOL POLICE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CAPITOL SECURITY

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                  HELD IN WASHINGTON, DC, MAY 1, 2008

                               __________

                       Printed for the use of the
                   Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
43-593 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                    William Plaster, Staff Director
                                 ------                                

                    Subcommittee on Capitol Security

              MICHAEL E. CAPUANO, Massachusetts, Chairman
ROBERT A. BRADY, Pennsylvania        DANIEL E. LUNGREN, California


   ADMINISTRATION AND MANAGEMENT OF THE UNITED STATES CAPITOL POLICE

                              ----------                              --



                         THURSDAY, MAY 1, 2008

                  House of Representatives,
                  Subcommittee on Capitol Security,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:39 a.m., in 
room 1310, Longworth House Office Building, Hon. Michael E. 
Capuano (chairman of the subcommittee) Presiding.
    Present: Representatives Capuano, Brady and Lungren.
    Staff Present: Liz Birnbaum, Staff Director; Darrell 
O'Conner, Professional Staff; Michael Harrison, Professional 
Staff; Matt Pinkus, Professional Staff/Parliamentarian; Kyle 
Anderson, Press Director; Kristin McCowan, Chief Legislative 
Clerk; Gregory Abbott, Policy Analyst; Fred Hay, Minority 
General Counsel; Alec Hoppes, Minority Professional Staff; and 
Bryan T. Dorsey, Minority Professional Staff.
    Mr. Capuano. Basically, I want to thank everybody for 
coming today. I have an opening statement I will not read, but 
I will put in for future posterity if anybody wants to read it. 
We have two panels today. Our first panel is with Chief Morse. 
He is accompanied by Assistant Chief Nichols and Ms. Jarmon, 
who is the chief administrative officer of the Capitol Police. 
Our second panel will be Mr. Stana from the GAO and Mr. Tighe 
from the U.S. Capitol Police Officers Labor Committee.
    We are here today to kind of catch up on certain aspects 
particularly with relation to the GAO report. But whatever else 
comes up is fine. I want to make it clear to everybody that we 
are having a public meeting today, but I believe firmly that 
Capitol security matters are best handled in a nonpublic forum 
on a regular basis. So I wouldn't expect that we have a whole 
lot of public hearings on this particular matter. I know some 
people don't like that, but I think that security is more 
important than anything else, and it is important to have it in 
a forum where people can speak openly and honestly.
    Today we have certain issues that can be spoken about in a 
public manner, and I think they are appropriate for it. And 
with that, I will stop and ask Mr. Brady for his lengthy 
opening statement. And when Mr. Lungren gets here if he wants 
to do one, he is more than welcome to.
    With that, I am just going to turn it over to you, Chief, 
and feel free to say whatever you want.
    [The statement of Mr. Capuano follows:]
    [GRAPHIC] [TIFF OMITTED] T3593A.001
    
  STATEMENT OF CHIEF PHILLIP D. MORSE, UNITED STATES CAPITOL 
   POLICE; ACCOMPANIED BY DANIEL NICHOLS, ASSISTANT CHIEF OF 
   POLICE; AND GLORIA L. JARMON, CHIEF ADMINISTRATIVE OFFICER

    Chief Morse. Thank you, Mr. Chairman, and members of the 
subcommittee. I would like to thank you for the opportunity to 
be here today. We are going to discuss with you a lot of things 
about the Capitol Police and what we have done in the last 15 
months. I am pleased to be joined here to my right by my 
assistant chief, Dan Nichols, and my chief administrative 
officer, Gloria Jarmon, here to my left.
    As you know, Ms. Jarmon recently joined the Capitol Police 
from the Government Accountability Office. And her background 
and expertise provide the department with well-rounded 
leadership and completes our team that is necessary for our 
efforts to become a premiere organization, both operationally 
and administratively.
    I would also like to thank the subcommittee for its 
interest and support for the men and women of the United States 
Capitol Police. Your support, as well as the support from our 
oversight and appropriations committees, is crucial to the 
successful execution of our mission.
    It has been a little over a year since I was selected to be 
the chief of police. During this time, the department has 
undergone many cultural, operational, and management changes. 
These changes are a larger process to modernize the department 
for mission capability and efficiency, while enhancing our 
ability to protect Congress. I welcome this opportunity to 
provide you with an update on our successes thus far and the 
challenges that remain before us, as well as a vision for 
shaping the future.
    As in any organization, teamwork and leadership are 
essential qualities of a well-managed security and law 
enforcement operation. It is through this teamwork and 
leadership that the Capitol Police has been able to achieve 
many successes over the last year. I would like to recognize 
the hard work of all the sworn and civilian staff of the United 
States Capitol Police, who exhibit their leadership and 
dedication to teamwork in meeting our mission every single day. 
Every day of the year, without exception, these dedicated 
individuals, with the support of the Capitol Police Board and 
the Congress, ensure the safety of Members, staff, and millions 
of visitors from across the globe who come to see democracy at 
work.
    In addition, I would like to recognize the department's 
unions, the Fraternal Order of Police and the Teamsters, for 
their contributions to our overall success as well.
    It is through this teamwork that the department has been 
able to progress over the last year.
    I would like to talk a little bit about our progress. To 
ensure our success, we have established several tiers of 
management communication in order to keep all employees better 
informed on the workings of the department and the expectation 
of leaders and stakeholders. The Executive Management Team, the 
Senior Management Team, and our Frontline Management Team have 
been effective in developing accountability down through all 
levels of management so that the senior leaders can count on 
the frontline supervisors to run day-to-day operations while we 
make a concerted effort to map out the strategic path for the 
department.
    Here are some of our progress highlights. We have handled 
multiple special events to include the State of the Union, 
Capitol concert series, large demonstrations, and congressional 
events. We have adopted a concept, similar to community 
policing, which provides direct outreach by our Capitol Police 
officers and officials to the committees and Members' offices 
with the congressional community. We use this program to visit 
every office in the House Office Building to inform them of 
emergency evacuation procedures for their specific building. We 
implemented new security screening guidelines throughout the 
Capitol complex. We planned, coordinated, and evaluated a 
number of exercises within the Capitol related to air 
evacuations, lock downs, and active shooter response. We 
finalized our
continuity-of-operations plan and implemented a process for 
review and enhancement of the plan to meet evolving threats and 
requirements. We conducted multiple training exercises across 
the Capitol campus to improve readiness for sworn personnel in 
the field.
    There have been expressed interest and concern related to 
the department's effort to address the GAO's recommendations, 
and today I am happy to report that, since October 2007, we 
have closed 33 percent of the GAO recommendations, and we are 
actively working to address the rest of them. We have developed 
a full set of financial statements for FY 2007 and are actively 
working on statements for 2008. We have completed a full 
inventory of our capital assets and assigned values to these 
assets. We have redesigned our budget planning and execution 
process to include formalizing the department's Investment 
Review Board.
    At the direction of the committees of jurisdiction, we 
completed the operational and administrative requirements to 
the merger of the Library of Congress Police, and this resulted 
in the passage of legislation. We have revised the uniform and 
equipment policy of the Capitol Police that will result in 
uniformity of appearance and overall cost.
    And in closing, I would like to say that I am looking 
forward to continuing my efforts as chief to make the U.S. 
Capitol Police a best practices organization. I would like to 
thank you once again for allowing us to appear before you. And 
my colleagues and myself would be happy to answer any questions 
that you may have.
    [The statement of Chief Morse follows:]

    [GRAPHIC] [TIFF OMITTED] T3593A.002
    
    [GRAPHIC] [TIFF OMITTED] T3593A.003
    
    [GRAPHIC] [TIFF OMITTED] T3593A.004
    
    [GRAPHIC] [TIFF OMITTED] T3593A.005
    
    [GRAPHIC] [TIFF OMITTED] T3593A.006
    
    [GRAPHIC] [TIFF OMITTED] T3593A.007
    
    [GRAPHIC] [TIFF OMITTED] T3593A.008
    
    [GRAPHIC] [TIFF OMITTED] T3593A.009
    
    [GRAPHIC] [TIFF OMITTED] T3593A.010
    
    [GRAPHIC] [TIFF OMITTED] T3593A.011
    
    [GRAPHIC] [TIFF OMITTED] T3593A.012
    
    [GRAPHIC] [TIFF OMITTED] T3593A.013
    
    [GRAPHIC] [TIFF OMITTED] T3593A.014
    
    [GRAPHIC] [TIFF OMITTED] T3593A.015
    
    [GRAPHIC] [TIFF OMITTED] T3593A.016
    
    [GRAPHIC] [TIFF OMITTED] T3593A.017
    
    Mr. Capuano. Thank you, Chief.
    I don't know if Chief Nichols or Ms. Jarmon had an opening 
statement, but even if they do, I would like to offer Mr. 
Lungren an opportunity to make an opening statement.
    Mr. Lungren. Thank you very much, Mr. Chairman, and I am 
sorry that I was late. I had to be a ranking member at two 
other subcommittees so far this morning, and it isn't even noon 
yet. So thank you.
    One of the reasons I returned to the Congress was my desire 
to keep our country safe and secure from future terrorist 
attack. And because we cherish freedom and the democratic 
process in our Nation, obviously we want to keep our 
legislative process, our Capitol buildings and our lawmakers to 
be accessible and therefore accountable to those they serve. 
But the very openness with which we operate this legislative 
body also produces unique security challenges when considering 
the vigor with which some want to inflict terror and harm on 
our country.
    So I am pleased today this subcommittee is taking the 
opportunity to have a hearing on this important subject. Since 
being selected to serve on this subcommittee, I have made it a 
point to visit the Capitol Police Command Center and the K-9 
training facility. I have even visited the Capitol Power Plant 
to see firsthand some of the more unusual challenges that come 
with securing the Capitol complex.
    So, Mr. Chairman, the topic of Capitol security is a 
bipartisan issue, and I look forward to working with you in the 
days ahead. And the administrative functions of the department 
are important and ultimately allow the force to more ably and 
efficiently meet its security requirements.
    However, I believe it is important for the subcommittee to 
be more fully informed and engaged in the present threats--on 
the present threats facing the Congress and the actions that 
the Capitol Police are taking to address these threats. I would 
hope that we could have a classified briefing on the actual 
security matters as soon as possible and that we could include 
a discussion on recent troubling incidents and the steps that 
have been taken in response.
    And I just have to say this, since this is the first 
meeting of our subcommittee, I find it very troubling to see 
the manner in which a recent incident was handled in the 
Capitol complex where an unknown was allowed to exist for 3 
weeks. And the procedures that were followed at that time 
seemed to contradict every bit of training and every bit of 
information that I had received up to that time as to how we 
handle security threats here at the Nation's Capitol. So I hope 
that we can get involved with the hearings, not to make 
headlines, but behind closed doors perhaps as quickly as 
possible.
    Mr. Capuano. That is what I said at the beginning before 
you got here, Mr. Lungren, is I plan to have many more meetings 
privately, because I think that is where we need to talk about 
certain things.
    Mr. Lungren. Thank you.
    Mr. Capuano. Chief, I am not sure if you wanted either 
Chief Nichols or Ms. Jarmon to make a statement, then that is 
fine. Whether you do or you don't, whatever you want, is fine 
by me.
    Mr. Nichols. No, sir. I am here to support the chief and 
answer any questions you may have.
    Ms. Jarmon. No.
    Mr. Capuano. All right.
    In that case, I have several questions. First of all, I 
know the GAO report was just about a year ago, a little over a 
year ago, I am just curious, do you have a general idea of the 
time frame of completion of adoption? I know you are in the 
midst of them. I know you have done some; you are doing others. 
Do you have an idea how long it will take to adopt all of them, 
or goal, I should say, or a target?
    Chief Morse. Every single day, we are certainly working 
toward actively closing them. We have, made certain things a 
priority in doing so. One is certainly the hiring and staffing 
of employees in certain areas like financial management, in 
which many recommendations came. Ensuring that the financial 
statements, that we get a clean audit on them. And the chief 
administrative officer is responsible for that. And perhaps she 
can talk a little more to that in a second. And then we have 
policies and procedures that need to be adopted or drafted and 
put into place. And then protection of our information and 
systems. So we've identified a methodology in which to do that. 
And I think within the last fiscal year closing 33 percent of 
those shows that we are very actively working on that.
    Mr. Capuano. Do you think that if we have a hearing next 
year you will be able to tell me you closed a hundred percent 
of them or 90 percent of them?
    Chief Morse. I would think that next year we would probably 
be able to match what we have done this year. And I look 
forward to next year, because I think that we will have 
significant, significant progress in all areas, as we have 
shown in the past year.
    Mr. Capuano. I am specifically interested in human capital, 
if you want the truth. And there are two areas that have 
concerned me a little bit--well, two areas with one subset 
area. One is the financial services end of it. Honestly, it 
makes it almost impossible for us to really kind of oversee 
anything unless we have an idea of the numbers. And the numbers 
have to be--I have to have confidence in those numbers, and we 
can't do it without an auditing company saying that those 
numbers are fair and reasonable and appropriate. That can't be 
done unless you can attract and maintain appropriate financial 
services people. I am just wondering--I know you have hired 
somebody in the last recent weeks--what is the problem? Why are 
we having so much difficulty attracting and retaining them?
    Chief Morse. Well, first, the appointment of Gloria Jarmon 
is one step toward improvement of that overall process. And her 
expertise, knowledge, skills and abilities really are about 
financial management.
    With regard to the office itself, there were several 
factors involved in the hiring and turnover. One of them was 
the fact of all the recommendations not being accomplished 
there, the lack of policy and procedure and direction, which 
created sort of a chaotic atmosphere, if you will, which led to 
overworked employees. So that was one thing that we had to 
address. The second thing was there were some losses to the 
private industry, which are very highly paid.
    And then we worked under a CR for some time where we 
couldn't hire. But what we did during that time was we reviewed 
positions. We took a look at what we needed to close those 
recommendations, the knowledge, skills, and abilities of those 
employees we were going to hire, and we upgraded those. And I 
am happy to report that, on May 12th, our new director of 
financial management will be joining us, Mr. Steve Haughton. 
And also we are in the process of hiring a budget and 
procurement analyst.
    Ms. Jarmon. Right. Just to add a little more to that, I 
have been here almost 3 months, and I have been focused on 
trying to make sure we can hire and retain competent financial 
management people. Because of the GAO recommendations, three of 
those recommendations that were not closed or are considered 
little progress completely related to the ability to hire and 
retain people so we have been focused on that. And I think we 
made good progress. We have had some very competent applicants 
for the positions. And I think if we are back here next year, 
you will see we have made significant progress in that area.
    Mr. Capuano. That is good, because, again, it makes it 
difficult for us to do our oversight unless we have numbers 
that we feel comfortable with.
    If you need assistance, Chief, whether it is with a CR or 
anything else, attracting and retaining personnel, obviously, I 
think we would like to hear about it so we can be helpful.
    It also relates to my last question really, at the moment, 
is relative to the same thing, relative to officers. I know you 
have a relatively high rate of turnover. And I am just curious, 
what are we trying to do in general to address those issues?
    Chief Morse. This all really goes back to really gaining 
control of how the office is operated, providing a vision and 
direction for where we are wanting to go. And right now, we 
have an Executive Management Team that is in place that is very 
highly skilled. These are some of the positions that a year 
ago, a year-and-a-half ago, were not filled. For instance, our 
information technology, human resources, our office of homeland 
security and planning, just to name a few. And now with a new 
CAO, a new director of finance, we have a complete team and a 
very talented team. And with that, we expect to have great 
things happen.
    The other side is the recommendations themselves. I mean, 
they are the guidance to our success, along with those things 
that we also developed of our own. And we work with the GAO, 
and we work with our Inspector General in order to find the 
best path to success. We have also adopted the Government's 
Performance Act. We have methodology for closing our GAO 
recommendations. And we have a plan. And I don't know that with 
lacking the GAO recommendations and having those in place, that 
we really had a plan for any success. So, with all those things 
combined, we are looking forward to the coming years and really 
professionalizing and making it a best practices organization.
    Mr. Capuano. In the year that both you have been here and 
this report has come out, have you seen a change in retaining 
young officers, or has it stayed steady, or have you gotten 
worse?
    Chief Morse. With regard to officers, I think that we have 
a very good retention rate. And I spoke to an officer yesterday 
who told me that he saw a change, and positive change, and he 
was excited about that. And I think that with change and the 
significant change that we have had over the course of the 15 
months, you are going to have some resistance. But that 
resistance is overcome when they see the result of that. And 
the result of that is that the organization is going in the 
right direction. We are making significant progress, both 
administratively and operationally. Some of the things that we 
have done over the past year are just extraordinary, and as a 
result of the committees of jurisdiction allowing us to use our 
facilities here to train our personnel. We were able to train 
all our personnel on lockdown procedures, evacuations, and 
active shooter response. That is something that has never been 
done before, especially right here on campus. And that was a 
significant, not only a morale booster but also from the 
standpoint of being prepared and being prepared for the things 
that occur or can occur here on the campus was significant. So, 
you know, retention is where it should be. We would always want 
it to be lower. And I think that a lot of that has to do with 
the progress that we are making.
    Mr. Capuano. Thanks, Chief.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. Chief, can 
you tell me what's the total number of personnel for your 
agency?
    Chief Morse. The authorized strength is 1,702, and I think 
we are currently at 1,611. That would be sworn personnel.
    Mr. Lungren. Sworn.
    Chief Morse. The authorized strength for civilian is 414, 
and I believe we are currently at 59 below that. I don't have 
the exact----
    Mr. Lungren. How does that compare with other metropolitan 
departments, that is civilian to sworn?
    Chief Morse. With respect to the ones in this area, I would 
believe that the metropolitan police has a larger sworn force 
than us, as well as civilian. I would say we are probably 
average.
    Mr. Lungren. I am not talking about total size. I am 
talking about percentage of civilian versus sworn. You say you 
are average?
    Chief Morse. I think that would be average.
    Mr. Lungren. That would be average around the country, or 
do you know?
    Chief Morse. I think the numbers, the numbers of supporting 
civilians for supporting the number of sworn officers and 
programs, initiatives that come with that, I think that our 
authorized numbers are pretty much where they should be.
    Mr. Lungren. As I understand it, an officer at appointment 
receives $49,631, and after they successfully complete 
training, they are bumped up to $51,370 annual pay. And after 
their first 30 months on the job, they become private first 
class at a salary of $57,601. At least that is the latest 
information I have. How does that compare with other law 
enforcement agencies in this area?
    Chief Morse. That is much higher than most municipal or 
State law enforcement agencies in the metropolitan area, and it 
is very competitive with the Federal agencies here in the 
District of Columbia and the United States.
    Mr. Lungren. Chief, let me ask you this about your 
statement that you have followed a threat-based staffing model 
as you explained your efforts to tie resources to risks. Could 
you give us some examples of changes that we would see in a 
transition to a threat-based staffing model and how far along 
you are on that?
    Chief Morse. Well, the concept of operations for a threat-
based model is concentric rings of security, which wehave; 
prevent, detect, respond, and mitigate as a part of that. We would like 
to be able to address the threat as far away from the Capitol complex 
as we possibly can. Some of the changes that you might see and some 
that we are currently actively doing are in relation to, for instance, 
our truck interdiction and monitoring program. Where we are able to 
establish 75 new camera systems that focus on possible threats 
approaching the campus well before they get here. Giving the officers 
the time to react to that and apply the prevention and/or mitigation of 
that threat before it reaches the campus. And that is really what our 
truck interdiction and monitoring program is. And you see that here on 
the four corners of the campus. And we are expanding upon that daily 
using technology to do so. That would be an example.
    Another example would be the bollard systems that you see, 
Delta barriers for access into secure locations. All our 
screening methodology addresses all the most current threats, 
to include, you know, obviously weapons and chemicals, 
biological, nuclear, et cetera.
    Mr. Lungren. You pronounced that last word the same way the 
President does. That is very interesting. In designing training 
plans, Chief, to meet the human capital requirements for the 
force--and the reason I ask that is there are different 
cultures in different departments. And I saw that as the 
Attorney General of California looking at various departments 
throughout California, saw that as I was able to compare them 
with others across the country. And some departments have a 
culture where physical fitness is very, very important. Others 
don't seem to have that. I happen to be one that happens to 
believe that that's important, particularly here at the 
Capitol, because not only do you want people to be able to 
physically respond to any emergency, and we could have any type 
of emergency here, but it also has to do with, it is the 
Nation's Capitol, and we ought to look our best so to speak. So 
I wonder whether you would be considering mandatory physical 
fitness standards for sworn personnel, not only as they come 
out of the training program and as they are first employed but 
on a regular basis.
    Chief Morse. Yes, that is something that we are looking at.
    Mr. Lungren. You are looking at it, but I mean what does 
that mean?
    Chief Morse. We are analyzing it. There is a lot of things 
that go with putting a physical fitness program in place, from 
a legal standpoint and then from a validation standpoint. We 
would want it to be right for what we do. And we would want it 
to be something that was achievable. And we would want it to be 
something that our current employees could also achieve. So I 
do agree with you that physical fitness and appearance are not 
only important for people to see, but it is also important for 
the health of our officers, and it serves as a great deterrent.
    Mr. Lungren. So, as I take it, that is something you would 
like to achieve, but you are looking at how it is achievable as 
opposed to whether or not you think it is a good idea to do.
    Chief Morse. That is correct. I think it is a great idea, 
and it is something that we are hopefully going to be able to 
achieve.
    Mr. Lungren. Thank you.
    Mr. Chairman, I have some other questions, but are we going 
to have a second round?
    Mr. Capuano. Yes.
    Mr. Lungren. Okay.
    Mr. Capuano. Mr. Brady.
    The Chairman. Yes.
    Thank you, Chief, for being here. As you know, my father 
was a police officer, so I feel some type of bond here. And I 
was a sergeant at arms, so I feel some type of bond with our 
sergeant at arms, Mr. Livingood. I know both of you work 
together, and I do appreciate and want to thank you for the 
cooperation that you have always given me. And I appreciate 
that. You know, when these bells and whistles go off, and when 
we hear airplanes flying above us, you know, we are all being 
escorted out of the building and you all are running into the 
building. So you certainly have my respect simply because you 
deserve it. In any way I can be cooperative and help you, 
please feel free to call me. And thank you again for your 
appearance today and also for your men. Thank you.
    Mr. Capuano. Chief, I just have one other question. It 
relates to overtime. I have no problem with overtime. I think 
overtime is actually a good thing for most of the rank-and-
file. I think it helps encourage morale and gets the most out 
of your employees.
    Of course, there is always a balance. I am just curious, do 
you have any operating procedures or whatever, limitations in 
place as to how much overtime an individual can get or--I am 
not worried about the dollar amounts. I am more interested in 
making sure there is not somebody on duty who has been on duty 
constantly for 36 hours unless absolutely necessary.
    Mr. Nichols. Yes, sir, that is one of our ongoing concerns. 
We do have a current cap in place for our officers. They can 
work up to 56 hours a pay period, which is a 2-week period of 
additional duty. And it is for the same reasons that you just 
articulated. We want to make sure that our officers are sharp 
and are able to respond to anemergency situation. If they are 
overworked, working too much overtime, it degrades that readiness and 
capabilities. So we have those policies and procedures in place for 
that very reason.
    Mr. Capuano. Thank you.
    Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman.
    Chief, one of the concerns I think outlined by the GAO 
report, or at least it has come to my attention, was that there 
appeared to be a significant number of employment-related 
lawsuits in the past. As you have reformed human resource 
practices, have we seen a reduction in lawsuits or complaints?
    Chief Morse. I don't know the answer to that question right 
now. I can get statistics for you----
    Mr. Lungren. Can you get that back to me, please?
    Chief Morse [continuing]. And get that for the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3593A.018
    
    Mr. Lungren. Thank you. Last year I had the chance, with 
Assistant Chief Nichols, to meet at the Command Center. And at 
that time, I asked you, you know, what resources did you think 
you needed? You didn't ask me to give you that; I asked you 
that. You responded with two letters, including one that 
outlined the costs involved. It is not insubstantial, nor did I 
think it would be insubstantial.
    And I wonder, Mr. Chairman, if in the future, at some point 
in the time in the future we could off line sit down with the 
chief and the assistant chief about that list. And again, I say 
they didn't ask me to do it, I asked them, what do you need in 
terms of additional capital investments so that we could be 
informed and take a look at it. And I think some of them it 
would be better for us to probably discuss it behind closed 
doors just because of the nature of the equipment and what it 
would be used for. And I think maybe, at least for me, it would 
be helpful and perhaps for the subcommittee.
    Mr. Capuano. Just one final question, Chief, and I 
apologize I didn't ask earlier. I am also interested in 
diversity, particularly in the higher ranks, not as much in the 
entry level ranks. I mean, from what I see, I don't know the 
numbers, but it looks like a diverse workforce. But when it 
gets up there, it doesn't look like a diverse workforce. I am 
just curious, are you taking positive steps to address--first 
of all, is my perception correct? And second, if it is, are you 
taking steps to address that?
    Chief Morse. Well, first of all, I am very proud of our 
posture regarding diversity in the workplace. And we are 
obviously committed to moving forward to an increased 
representation of both women and minorities in the police 
department, both sworn and civilian, as well as in the sworn 
ranks. What we do is, to ensure that we have the highest 
qualified people and that the promotional process is not one 
that is biased or discriminatory, is that we use an outside 
contractor. And we also use subject matter experts from within 
the police department. We are inclusive of everyone from the 
top down. So that makes for a process that everyone feels 
comfortable in being a part of. And I think that increases the 
number of people who enlist to become officials.
    Also of our 21 SES-equivalent positions, 6 are represented 
by women and 3 are represented by minorities, which is over 43 
percent of our Executive Management Team that we spoke of 
earlier. And most recently, in the last 6 months, four women 
and minority sworn employees have been promoted to the official 
ranks. And in addition, we recently promoted two internal 
minority females to manager positions in our financial 
management and human resources offices. So these are done 
through a competitive process. They are done in an open and 
fair way, which I think attracts the most qualified people for 
the position but also is a process that is transparent and 
people want to be a part of.
    Mr. Capuano. Chief, I respect all that, but I have done a 
fair amount of hiring in my life, and I have almost never found 
a job for which one person is solely and uniquely qualified. 
That includes my job. That includes your job. I mean, for my 
job I got 635,000 constituents, and myexpectation is there are 
634,000 that are more qualified than me, but I got it. And that being 
the case, I totally understand and absolutely agree. I am not looking 
for quotas. I am not looking for some alleged neutral review of the 
whole thing. I would never suggest that the best qualified person 
shouldn't get it. But it is awfully hard, I can never believe--not 
never, but seldom believe that there is any job for which one person, 
regardless of anything, where one person is the only person who is 
qualified for that job. I have almost always found I could get 10 
people for any one job, and then you get down to, of those 10 people, 
any one of them are qualified for it, which one do I pick. And my hope 
and expectation is that a goal of diversity is part of that judgment 
process once you get down to those qualified people.
    Chief Morse. One of the things that we requested in our 
2009 budget that will address the type of situation that you 
are talking about where we get direction is for a diversity 
officer. And specifically, that person, we are an organization 
that does not have that, and that particular position would 
allow direction, best practices and so forth in relation to 
diversity and promotion and hiring and recruiting and such. So 
that is one positive step that we have made to diversity within 
our organization. And we hope that we would be able to bring 
that person on in 2009 to help us.
    Mr. Capuano. That is fair enough, Chief.
    But you know, the city I ran had more people than you have, 
and we didn't have a diversity officer. We didn't need one. Not 
a problem having one, but the commitment has to come from 
people who do the hiring. The commitment has to come from the 
people who do the promotions. In the final analysis, a 
diversity officer is only just somebody there whose only job 
really is to make sure that you do the right thing. And if you 
want to do the right thing, you don't really need somebody who 
is standing there telling you to do the right thing, though my 
staff does that to me on a regular basis, and my wife in 
particular. I need it. My hope is that the people who are 
making the decisions don't really need that. And if they do, 
they won't need it for long.
    Chief Morse. I just wanted to add that we do want to do the 
right thing. And hopefully, this will help us make it so it is 
transparent. But I am committed to doing the right thing. And I 
support what you are saying.
    Mr. Lungren. I just have one last question. Chief, you 
mentioned that you have authorized 1,702 sworn, and you have 
1,611. Do you need 1,702, or do you need 1,611? And if you need 
1,702, why aren't we closer to that? And if you don't, should 
we reduce the authorization down to 1,611?
    Chief Morse. We actually need more than that, which is 
evident by the amount of overtime that we expend.
    Mr. Lungren. Why are we missing 91 then?
    Chief Morse. Well, several factors there. One, our new 
mission sets. For instance, the CVC, 10 sworn were requested in 
2009 to fill that position and 11 sworn to support the new 
Visitors Experience at the Library of Congress. And also we 
have attrition. And I believe, in 2009, we are asking for 
classes to train 264 personnel.
    Mr. Lungren. What about your civilian? You say you are down 
59. Do you need those people or not need those people?
    Chief Morse. We absolutely do need those people. But in the 
budget, sometimes the budget is prioritized in a way that we 
have to prioritize hiring. And we absolutely need those people, 
which is why we requested it. And in the 2009 budget, we have 
re-requested civilian personnel from previous budgets that were 
not appropriated for.
    Mr. Lungren. Okay. Thank you.
    Mr. Capuano. Thank you, Chief. I appreciate it. Asst. Chief 
Nichols, Ms. Jarmon, I appreciate your coming and your openness 
and candor. And I look forward to working with you on a regular 
basis and more often on a more private basis.
    Chief Morse. Thank you, Chairman.
    Mr. Nichols. Thank you very much.

STATEMENTS OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
   JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND U.S. 
 CAPITOL POLICE OFFICER MATTHEW TIGHE, CHAIRMAN, U.S. CAPITOL 
                     POLICE LABOR COMMITTEE

    Mr. Capuano. On the second panel we have Mr. Stana, who is 
a director of homeland security and justice issues at the U.S. 
GAO, and Mr. Tighe, who is a U.S. Capitol Police Officer and 
chairman of the Fraternal Order of Police at the U.S. Capitol 
Police Labor Committee. And I believe we will start with Mr. 
Stana.

                 STATEMENT OF RICHARD M. STANA

    Mr. Stana. Thank you, Chairman Capuano, Mr. Lungren, for 
the invitation to testify on our work on the U.S. Capitol 
Police.
    As you know, USCP performs many essential functions that 
are key to the efficient and effective workings of the 
congressional branch. It is responsible for securing the 276-
acre Capitol complex, for protecting Members of Congress, their 
staffs, visitors, 19 buildings, and national treasures, and for 
regulating traffic within the Capitol grounds. Having efficient 
and effective operations and related administrative and 
management functions are important if USCP is to achieve its 
overall mission to protect the United States Capitol complex 
and the on-site public.
    Over the years, in response to various requests of 
legislative mandates, we identified and reported on management 
control problems in a range of operations, financial 
management, human capital management, and information 
technology, and made 46 recommendations for improvement in 
these areas. In response to our work, USCP recently created a 
framework to help them, us, and interested congressional 
committees to track progress in implementing our 
recommendations. Our recent review showed that USCP has 
completed actions on 15 recommendations and is making progress 
toward addressing 28 recommendations but has not made progress 
on 3 recommendations. My prepared statement discusses in detail 
the nature and importance of these recommendations and the 
status of USCP's efforts to address them.
    In my oral statement, I would like to highlight just a few 
main points. First, we reported that USCP needed a system to 
link its resource requests and allocations to identified risks, 
threats, and vulnerabilities. In response, USCP has completed 
risk assessments for 18 of 19 congressional facilities it 
currently protects and is scheduled to complete all assessments 
in this fiscal year. It also plans to complete additional 
assessments after it assumes responsibility for the Library of 
Congress facilities in just a few months. Additional actions 
will be required to adequately test and review its overall risk 
management approach. And until this process is completed, it 
will not be in the best position to justify resource requests 
and mitigate potential threats to Members, staff, visitors and 
facilities.
    Second, USCP faces major challenges in its financial 
management. We reported in the past on a high level of staff 
turnover and open vacancies, weaknesses in financial reporting, 
problems with the implementation of a new financial management 
system, and the need to follow through with plans to develop 
and implement an internal control problem. In the past year, 
USCP assessed its staffing needs and procurement processes and 
issued its first full set of financial statements in accordance 
with generally accepted accounting principles. USCP is also 
making progress in the areas of financial management training, 
policies, procedures, and internal controls. On the other hand, 
it had not made significant progress in filling vacancies that 
are critical to stabilizing its financial management workforce. 
Until our recommendations are fully implemented, its ability to 
sustain improvements and meet long-term financial management 
goals will be limited.
    Third, in the area of human capital management, USCP has 
adopted a hiring policy and is making progress on other 
recommendations related to workforce planning and training. 
Work still remains to be done to complete a strategic workforce 
plan and master training plan, which should include long-term 
strategies for acquiring, developing, retaining a workforce 
with the critical skills and competencies needed to accomplish 
the department's mission.
    And lastly, USCP has made progress in the information 
technology management area by establishing important IT 
management capabilities, such as those used--as the use of a 
disciplined system acquisition management practice. However, 
more work remains to be done in the area of enterprise 
architecture, investment management, information security, and 
continuity-of-operations planning.
    In closing, USCP has made significant progress in 
addressing operational and administrative weaknesses, but there 
still remains a substantial amount of work to be done. Until 
these weaknesses are completely addressed and our 
recommendations are fully implemented, USCP will not be in the 
best position to achieve its overall mission in the most 
efficient and effective manner. This underscores Congress's 
need to stay closely attuned to USCP's progress toward 
addressing the administrative and management challenges we 
identified. I would be happy to answer any questions you may 
have.
    [The statement of Mr. Stana follows:]

    [GRAPHIC] [TIFF OMITTED] T3593A.019
    
    [GRAPHIC] [TIFF OMITTED] T3593A.020
    
    [GRAPHIC] [TIFF OMITTED] T3593A.021
    
    [GRAPHIC] [TIFF OMITTED] T3593A.022
    
    [GRAPHIC] [TIFF OMITTED] T3593A.023
    
    [GRAPHIC] [TIFF OMITTED] T3593A.024
    
    [GRAPHIC] [TIFF OMITTED] T3593A.025
    
    [GRAPHIC] [TIFF OMITTED] T3593A.026
    
    [GRAPHIC] [TIFF OMITTED] T3593A.027
    
    [GRAPHIC] [TIFF OMITTED] T3593A.028
    
    [GRAPHIC] [TIFF OMITTED] T3593A.029
    
    [GRAPHIC] [TIFF OMITTED] T3593A.030
    
    [GRAPHIC] [TIFF OMITTED] T3593A.031
    
    [GRAPHIC] [TIFF OMITTED] T3593A.032
    
    [GRAPHIC] [TIFF OMITTED] T3593A.033
    
    [GRAPHIC] [TIFF OMITTED] T3593A.034
    
    [GRAPHIC] [TIFF OMITTED] T3593A.035
    
    [GRAPHIC] [TIFF OMITTED] T3593A.036
    
    [GRAPHIC] [TIFF OMITTED] T3593A.037
    
    [GRAPHIC] [TIFF OMITTED] T3593A.038
    
    [GRAPHIC] [TIFF OMITTED] T3593A.039
    
    [GRAPHIC] [TIFF OMITTED] T3593A.040
    
    [GRAPHIC] [TIFF OMITTED] T3593A.041
    
    [GRAPHIC] [TIFF OMITTED] T3593A.042
    
    [GRAPHIC] [TIFF OMITTED] T3593A.043
    
    [GRAPHIC] [TIFF OMITTED] T3593A.044
    
    [GRAPHIC] [TIFF OMITTED] T3593A.045
    
    [GRAPHIC] [TIFF OMITTED] T3593A.046
    
    [GRAPHIC] [TIFF OMITTED] T3593A.047
    
    [GRAPHIC] [TIFF OMITTED] T3593A.048
    
    [GRAPHIC] [TIFF OMITTED] T3593A.049
    
    [GRAPHIC] [TIFF OMITTED] T3593A.050
    
    [GRAPHIC] [TIFF OMITTED] T3593A.051
    
    [GRAPHIC] [TIFF OMITTED] T3593A.052
    
    [GRAPHIC] [TIFF OMITTED] T3593A.053
    
    [GRAPHIC] [TIFF OMITTED] T3593A.054
    
    [GRAPHIC] [TIFF OMITTED] T3593A.055
    
    [GRAPHIC] [TIFF OMITTED] T3593A.056
    
    [GRAPHIC] [TIFF OMITTED] T3593A.057
    
    [GRAPHIC] [TIFF OMITTED] T3593A.058
    
    [GRAPHIC] [TIFF OMITTED] T3593A.059
    
    [GRAPHIC] [TIFF OMITTED] T3593A.060
    
    [GRAPHIC] [TIFF OMITTED] T3593A.061
    
    Mr. Capuano. Thank you, Mr. Stana.
    Mr. Tighe, I think we are going to have to go to a vote 
soon. Okay, I just want people to know we are going to have to 
go off to a vote. And I apologize, we have a series of votes, 
but Mr. Tighe, we will be more than happy to take your 
testimony.

   STATEMENT OF U.S. CAPITOL POLICE OFFICER MATTHEW A. TIGHE

    Mr. Tighe. Thank you, sir. First time I have ever done 
anything like this, so bear with me.
    Mr. Capuano. Don't worry, we are easy.
    Mr. Tighe. Thanks a lot.
    Honorable Chairman and members of the committee, I would 
like to thank you for the opportunity to testify before you 
today. I am here not only to speak to you as chairman of the 
Capitol Police Labor Committee, but as a police officer as 
well.
    As chairman of the Fraternal Order of Police Labor 
Committee for the United States Capitol Police, I represent 
more than 1,000 sworn Members of our department. We meet 
regularly to discuss our experiences on the job. While much of 
what we discuss relates to traditional workplace issues that 
face union memberships in a variety of work settingsrepresented 
by organized labor, we also hear constant constructive criticism 
regarding how well we protect those we are sworn to serve. I am proud 
of my fellow officers' interest in supporting the goals our oath of 
office sets for us. They are professionals who want to contribute more.
    The men and women of the United States Capitol Police take 
great pride in being given the responsibility to protect 
Members of Congress, the congressional community, and the 
millions who visit here. Those who are recruited and trained to 
carry out our vital mission are among the best educated and 
motivated people I have encountered anywhere in the law 
enforcement community. They bring intellect and on-the-ground 
experience to the myriad tasks associated with securing and 
protecting everyone within the Capitol complex. I believe we 
are a well of underutilized insights and ideas that could 
support further improvements in securing the Capitol.
    The Capitol complex faces a constant threat that is not 
always easy to detect or identify. To deter and combat threats, 
the department must be given adequate and appropriate resources 
to fulfill our mission. We believe a longer view of the 
technology and equipment that can significantly enhance our 
mission must be taken. Further, that the integration and 
scalability existing in future systems must be given more 
weight in order to maximize the effectiveness of tax dollars 
spent while projecting future needs in a manner that will make 
improvements more affordable and compatible.
    In addition to the obvious need for training, equipment and 
adequate funding to carry out our mission for the Congress and 
the Nation, we need you to understand our mission and your 
cooperation in the performance of our mission. We recognize 
that often our duties may be viewed as an inconvenience, but 
they are essential for maintaining the security throughout the 
Capitol complex. An officer needs to stay focused on the 
possible threat without fear from reprisal for properly 
carrying out their duties. Due to this ever-changing threat, 
officers cannot passively monitor activity, but must be able to 
take a proactive approach to investigate suspicious activity. 
The effectiveness of the individual officers at each post, each 
of the patrol vehicles, and various support positions around 
the department is most affected by their personal motivation. 
It is dangerous for everyone who relies upon us if we are 
reluctant to do what is difficult but required.
    The human factor in our profession is unusually critical 
because a blind eye or turned head can allow the person intent 
on harm to bring arms, toxins or other dangerous commodities to 
the halls and offices of the Capitol Complex. Your police 
officers must feel that they will be supported by their 
supervisors, their chief, the Police Board, and Members when 
they make good faith efforts to do their job. If they come to a 
common sense, that good efforts are punished by the powers that 
be because they feel inconvenienced, then more damage is done 
to our security than you may understand.
    I urge this committee and the Congress to regularly publish 
its support for its police officers who diligently perform 
their duties as individuals and as an agency. When 
inconvenience meets security, we must encourage the responsible 
officers and officials to support security and to recognize 
those who work to secure those who we protect. I have devoted a 
lot of my time to our mission to protect you.
    Now I wish to raise a serious issue that is a more 
traditional union concern. I would like to highlight our 
retirement. The law enforcement profession is more competitive 
now than ever. It is critical to the Capitol Police to not only 
recruit the most qualified personnel possible but also to 
retain them for the length of their career. One of the greatest 
deciding factors that an applicant considers when making a 
decision for employment in law enforcement is the compensation 
package offered by each agency. Our goal is to enhance our 
retirement benefits to be more competitive with other agencies, 
thus more appealing to potential applicants. In doing so, we 
will not only be able to attract the best applicants but retain 
the officers thatare currently in the field.
    The costs associated with training a new officer just to 
have them leave for another agency is wasting the resources 
provided by Congress and the taxpayers. In too many instances, 
the U.S. Capitol Police department is the recruiting arm for 
competing local and Federal law enforcement agencies. Many 
young men and women who become U.S. Capitol Police officers 
begin to look elsewhere after completing a few years in our 
department. This very issue faced the Metropolitan Police 
Department in the early 1970s when the Congress approved an 
expansion of its authorized strength. Even with the 
unprecedented step of authorizing early outs for military 
personnel who joined the Metropolitan Police Department, the 
MPD was unable to reach the new authorized strength because too 
many new recruits left for law enforcement careers elsewhere 
after securing a few years of experience. It is a matter of 
record that the only thing that stabilized MPD's workforce was 
the adaptation of a 20-year retirement system by the Congress. 
Subsequent to home rule for the District, the city abandoned 
the 20-year retirement. They are now in the process of passing 
legislation that will restore 20-year retirement as they work 
to increase the size of their police department and stabilize 
their police force again.
    We look forward to working with all the relevant committees 
to accomplish this goal in the future. That concludes my 
statement. I will be happy to answer any questions.
    [The statement of Mr. Tighe follows:]

    [GRAPHIC] [TIFF OMITTED] T3593A.062
    
    [GRAPHIC] [TIFF OMITTED] T3593A.063
    
    Mr. Capuano. Again, as I said, I apologize, but we have a 
roll call vote over which, as you all know, we have no control. 
I expect, I am told there are four votes, guessing 45 minutes 
or so. When we return, I will understand if you can't stay, but 
if you can stay, obviously we would like you to stay. And I 
apologize again.
    Mr. Capuano. First of all, thank you for sticking around. I 
apologize, but this is what we do. I have also been informed 
that my colleagues will not be able to make it back. And they 
have asked and I think it is perfectly fine to let the record 
show that we will be allowing written questions. Hopefully you 
will be able to answer at a later time.
    Oh, you are here. You can still do written questions.
    For myself, I have a few questions. I would like to start 
with you, Mr. Stana. I heard you use some very carefully 
selected words, and that's a good thing. I tend not to do that 
the way I should. But I know that there has been progress made, 
and I know there are things left to do. We all know that.
    In your opinion, has satisfactory progress been made? 
Nobody expects any of these things to be done overnight. Do you 
think there has been satisfactory progress on the report, on 
adopting recommendations in the report? And do you think that 
what you heard earlier about the general time frame of 
potential completion, understanding it is just a time frame, do 
you think that is a reasonable response?
    Mr. Stana. Let me put my answer into a context.These 
deficiencies that we have identified, we have identified them again and 
again over the years. So we were a bit disappointed and in March 2007 
we reported that many of these existing and persistent deficiencies had 
really not been addressed. And that was because of a couple of reasons. 
One is there is quite a bit of turnover at the highest levels. The 
other, they were focused a lot on the day-to-day as opposed to the 
strategic.
    So when the Chief came in and took to heart the 
recommendations that we made and created a framework for 
addressing them, we were heartened. So what he listed as some 
of the recommendations that were closed, we were glad to see 
that.
    I also would like to say that where we are still looking 
for policies and procedures to be put in place, it is not the 
case that none currently exist. The issue is they are not 
particularly robust in some cases. In other cases, they have to 
be more attuned to the current circumstances and situations, 
and so on.
    With respect to how long it is going to take to close the 
recommendations I wish I could say it is going to take 5 
months, 10 months, 2 years, 5 years. Some of these things are 
living and breathing, like enterprise architecture, which is a 
blueprint for the organization, where they are today, where 
they want to get to tomorrow or in 5 years, 10 years, and what 
kind of technology they need to get there. Those efforts are 
never ending. Some they could do relatively quickly.
    There are two things that I think are particularly 
important to get done. One is to get on top of the staff 
turnover and churning. Get the already authorized positions 
filled, get the people on board. Get the people trained so they 
have the right knowledge, skills and abilities to get the job 
done. Then we're going to see how many people we need, to 
answer Mr. Lungren's question.
    The second thing is they will need a top management 
commitment to see that these new policies and procedures are 
actually implemented and that people are held to account for 
the results, and that this isn't just another set of 
recommendations that we answer for today and tomorrow it is a 
different story.
    Mr. Capuano. I appreciate it, Mr. Stana. I can only tell 
you that as long as I am here we are going to do that. I 
understand fully well where there are differences of opinions 
on certain things. I didn't hear them today and maybe we will 
hear them later on. That I respect. But when everybody is on 
the same page as to what should be done, I can promise you we 
will be holding everybody to account.
    Mr. Stana. I appreciate your concern, Mr. Chairman, about 
some of the sensitive items, particularly with our set of 
recommendations dealing with threat assessment, and 
vulnerability assessment, and the way you right size an 
organization, and where you place the people, allocate the 
resources to respond to threats. We really shouldn't discuss 
those kinds of things in this forum, but I can say that they 
have applied a threat matrix that we worked with them on to the 
buildings and to the grounds. That was encouraging, too. It is 
not quite finished yet, but at least they are on the road to 
being able to say this is the right number or this is the right 
capability, this is the right equipment because we have a 
systematic way of assessing that.
    Mr. Capuano. I think those are fair comments. I see the 
Chief shaking his head a little bit and I think he accepts it.
    Mr. Tighe, relative to your testimony, the thing that I am 
most interested in, I understand fully well that there are 
changes going on in the Capitol Police ranks all across the 
board, new leadership and new procedures. I am particularly 
interested in morale, which I know is a difficult thing to 
assess, a difficult thing to put your finger on.
    I heard you say concerns about retirement benefits. 
Retirement benefits obviously is subject to financial 
limitations and negotiations and the like. Are there other 
things in particular that you think would improve the morale? 
Well, I shouldn't say improve too much. I would like your 
assessment on the general level of morale, not specifically on 
a specific point. And then I would also like your opinion on 
one or two items other than retirement. I have heard the 
retirement thing, I accept it. We might be able to do it in the 
short term to be able to improve that if you think it needs 
improving.
    Mr. Tighe. Morale has really increased, I would say, in the 
last couple of months. The Chief has made a great effort to get 
out there and get his message out to the officers. I think when 
the Chief first came on board the message wasn't getting out 
there. Since the message is really filtering down to the 
officers I think morale has made a huge turn around in the last 
few months. It is really increasing.
    Mr. Capuano. That is great to hear. Again, having done this 
in my past life, I have always thought you will have 
differences of opinion, but communication----
    Mr. Tighe. If I could add one thing, I am not used to doing 
this. I think a lot of times you are so accessible to Members 
of Congress and we really appreciate, the officers appreciate 
that there is always an ear that we can speak to. Sometimes 
what happens is the squeaky wheel will come up and talk to you. 
I don't think you get to talk to the 90 percent of these guys 
that are out here, and are getting the message, and are happy 
with the way the department is going.
    Mr. Capuano. I understand the squeaky wheel. As a matter of 
fact, most Members of Congress' lives are built around the 
squeaky wheel. If I heard from all 635,000 constituents in one 
day the world would come to a halt. Weunderstand that. Most of 
us are pretty adept at recognizing that. At the same time I also know 
that oftentimes when we get a comment or complaint or a suggestion, it 
is not just that one person. Sometimes it is broad based, and that is 
why you, in your representative capacity, I thought it was important to 
ask you as well.
    Thank you.
    Mr. Lungren.
    Mr. Lungren. Well, let me be the squeaky wheel to ask some 
questions here.
    Mr. Stana, you talked about disappointment year after year 
after year, although you have seen improvement in the last 
year. Can you venture an opinion as to whether or not the 
difficulty in making some of these changes is as a result of 
the fact that you have got a police department that responds to 
a Capitol Police Board? It responds to authorization committees 
both in the House and Senate and responds to appropriations 
subcommittees in both Houses? Does that have anything to do 
with the difficulty in making some of these changes?
    Mr. Stana. Well, the kinds of changes that we are 
interested in pursuing I don't think would be particularly 
sensitive to that. We are talking about bread and butter 
management issues. We are talking about having policies in 
place. We are talking about having position descriptions that 
adequately describe the work that is supposed to be done and 
the training that is supposed to be received. We are talking 
about an enterprise architecture that any organization of any 
size should have. We are talking about financial management to 
produce documents that you can rely on with numbers that are 
reliable. We are talking about a police force that should be 
able to have a rational way of assigning staff and knowing what 
the right number is to perform its mission.
    So no, I wouldn't say that there would be any difficulty 
there.
    Mr. Lungren. You gave us some reasons or at least you 
articulated the frustration with not seeing changes year after 
year after year, but you have seen some changes in the last 
year. Can you venture an opinion as to why the department's 
been able to achieve some of these changes in this last year 
but were unable to in the previous years?
    Mr. Stana. Well, I would say this. For years and years and 
years these problems persisted because there was preoccupation 
with other issues. And perhaps you would have to ask the former 
regime whether they figured that that was as important as some 
of the security missions. But when the Chief took over he was 
responsive to our recommendations. He set up a framework of 
assigning responsibility and accountability, checking quarterly 
on progress and reporting to you semiannually on progress 
there.
    Now, I am not saying that there is a difference between 
night and day. What I am saying, it is midnight and maybe 9 
a.m. There is a ways to go here, but the signs are all pointing 
in the right direction.
    Mr. Lungren. Have you had to identify any major remaining 
risks from the standpoint of how you would see the greatest 
risks or failures to improve in the administrative operations 
of the department? What would those risks be as you would see 
them, and do you have a sense that they are being viewed by the 
administration with a sense of urgency?
    Mr. Stana. I pointed out that there are many policies and 
procedures and plans that have to be put in place, and many can 
soon be put in place. But I think the two greatest risks are 
first, they can't get on top of the churning of staff, can't 
stabilize that staff. This is extremely important, particularly 
in two areas, the financial management and information 
technology.
    Mr. Lungren. You are talking primarily administrative 
staff?
    Mr. Stana. Yes, yes. I think that is key.
    The other is I just hope that we don't declare victory by 
having all these policies and procedures put in place and sort 
of putting them on the shelf and worrying about the next thing. 
You have to sustain the interest in accountability, in getting 
this job done right day after day, and putting controls in 
place to recognize when circumstances are requiring adifferent 
way of doing things.
    Mr. Lungren. Thank you.
    Officer Tighe, would you individually and the organization 
that you represent support the idea of mandatory physical 
fitness standards for Capitol Hill Police officers?
    Mr. Tighe. We would have to see how it would be put into 
place, how it would affect the officers that are on the job 
right now. I think physical fitness for any officer is a good 
idea. I think encouraging even voluntary, giving officers time 
to work out while they are on duty is a good idea, but I 
imagine it would be very costly to be able to do that.
    Mr. Lungren. So you don't have an already formed position 
against the idea? It is the question of how it would apply and 
how we would make it work, is that correct?
    Mr. Tighe. No, sir. I believe every officer on this 
department should be physically fit, and be able to go out 
there and effectively do their job. And I think it would be 
another tool that you put in your tool belt to help the 
officers.
    Mr. Lungren. Let me ask you this, it seems to me that one 
of the difficulties in the job of being a Capitol Hill Police 
officer is that as opposed to many other departments where you 
are out on patrol, most of the officers out on patrol are 
detectives doing their work. We have, because of what the role 
is here of the department, the obligation to have permanent 
stations. They are physical stations where officers are 
basically standing there, trying to look out for any potential 
problem that might exist and also being officer friendly to the 
people who are there.
    It seems to me you could run the risk of getting stale at 
that. How do we do in terms of the department's either rotating 
of positions or keeping your people fresh? How is that done and 
how successfully is that done right now? Because it seems to me 
if I were part of this department and I am manning my station 
day after day after day after day, I might look at another 
department and say I could be in a patrol car out there on a 
regular basis or I could be moving around, and that would 
attract me as long as you have equivalent wages and retirement, 
and so forth.
    Mr. Tighe. No. The officers for the most part know what the 
job is when they come here. They are prepared to stand post. 
They are made fully aware when they come here they are going to 
be more of a security force than proactive police force of what 
you associate with a traditional police department. I guess is 
what I'm trying to say.
    I think making more career paths available to the officers, 
giving them more training and making them feel they are part of 
the system, making them know that we are backing them up and 
when they are doing their job that they will have the full 
backing of the department and the community. The officers that 
are here take great pride in what they protect. It is not the 
same when you go to a local department. I mean, you are 
protecting the Nation's Capitol. That is something to go home 
and be proud of. I think our officers take great pride in that, 
and that is why we are here to do our job. We are here because 
we want to be here.
    Mr. Lungren. In your testimony you mentioned the dichotomy 
between creating the security against a potential attack on the 
one hand. An inconvenience I think is the word you used, but 
it's probably more than inconvenience. It is a sense of 
hospitality. It is a sense of welcoming people.
    From the standpoint of the officers and the training they 
receive, how is that dealt with? How is that dealt with so that 
the officer can be officer friendly and at the same time be the 
officer that is on the lookout for suspicious activity given 
the fact that you are there for hours and hours?
    Mr. Tighe. I think it is the training we are given in the 
academy. It is to be engaging to the people coming through the 
doors. Believe it or not, that is a great way of finding out. 
If people are not receptive to your friendliness and engaging 
them in conversation, that is a great way to get a clue right 
there.
    The training, the security training we have been given 
right now is a lot more comprehensive than when I went through 
the academy. You are trained to look for a lot more threats 
than just a simple knife or a gun coming through the doors. Now 
there are a lot of different items that we are looking for, and 
it is a lot more training than was initially given to guys who 
have been in the department 10, 15 years ago.
    Mr. Lungren. Mr. Stana, from the standpoint of the GAO 
report, was there any inquiry made of how the department is 
organized to ensure that you have supervisory personnel on a 
regular basis checking the performance of officers?
    Mr. Stana. No, that was outside the scope of our review. We 
have done a number of reviews of the U.S. Capitol Police over 
the years. I don't think we have gone into the area much beyond 
staffing ratios.
    Mr. Lungren. Okay, thank you very, very much. Thank you, 
Mr. Chairman.
    Mr. Capuano. I just have one last question, Mr. Stana. It 
is my understanding that the department has engaged the 
services of an outside company to look at best practices, and I 
am just wondering if they are working with you or are you aware 
of their efforts?
    Mr. Stana. We worked with the Capitol Police on a risk 
matrix to identify potential threats, vulnerabilities and 
potential responses. I believe they have engaged with 
Enlightened Leadership Solutions, ELS, to take that threat 
assessment further. We have not reviewed that study. We would 
be happy to do so if you would like us to.
    Mr. Capuano. I would like that. Not because I have any 
questions about it, but because I think every view you get, 
every thoughtful, insightful view you get of anything always 
adds to it.
    Mr. Stana. Yes, I know they've engaged with that firm to do 
a number of things, not the least of which was in some sense a 
peer review, to call around to the different agencies in town 
to see if the way the Capitol Police is structuring its risk 
management framework is similar to what the FBI would do or the 
CIA or Homeland Security would do. And ELS got back pretty high 
marks for the Capitol Police effort, but then they did their 
own assessment, and we haven't reviewed that.
    Mr. Capuano. Okay.
    Mr. Stana. We have been briefed on it, but we haven't 
reviewed it.
    Mr. Capuano. Whenever you feel it is appropriate. I don't 
feel these things have to be done right this minute. When you 
get a moment, I think it would be helpful to get another set of 
eyes on it. Not because I have any questions about it, it is 
just an independent review of the matter.
    I have no further questions. Again, gentlemen, thank you 
very much. I appreciate it, I apologize for the delay, but it 
is what we do here. I know you know that. I want to thank 
everybody.
    I also want to repeat what Mr. Brady said earlier. I can't 
tell you how high a regard we hold the Capitol Police here. We 
think you do a great job for us. I feel like every member of 
the force is very friendly, very open, yet very professional, 
and I think I can speak for every Member that we really 
appreciate what you do for us. And we really appreciate how you 
balance security with the desire to have an open, friendly 
environment to the best of your ability. I want to thank you 
and praise you for what you have done, and I look forward to 
working with you as you go forward to improve it even more.
    Thank you.
    [Whereupon, at 1:38 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
